No.

IN THE
SUPREME COURT OF THE UNITED STATES

LUISA M. LIBERTO AND JEFFREY M. LIBERTO - PETITIONERS
VS.
GEISINGER HOSPITAL, et. al. - RESPONDENTS
PROOF OF SERVICE
I, Luisa M. Liberto. do swear or declare that on this date,
June 16. 2021.
as required by Supreme Court Rule 291 have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to
each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
Jill M. Lashay, Attorney
Buchanan Ingersol & Rooney PC
409 North Second Street
Harrisburg, PA 17101 - 1357
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

June 16. 2021.

(Signature)

